                      DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                      OFFICE OF AUDIT SERVICES
                                     233 NORTH MICHIGAN AVENUE                                  REGION V
                                                                                                 OFFICE OF
                                       CHICAGO, ILLINOIS 60601
                                                                                            INSPECTOR GENERAL

                                            June 4,2009


Report Number: A-05-08-00089

Mr. Barry S. Maram
Director
Illinois Department of Healthcare and Family Services
201 South Grand Avenue East
Springfield, Illinois 62763-0001

Dear Mr. Maram:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Medicaid Credit Balances at St. Joseph Hospital
as of June 30, 2007." We will forward a copy of this report to the HHS action official noted
below.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-08-00089 in all correspondence.

                                               Sincerely,



                                             eGRegion Inspector General
                                                for Audit Services


Enclosure


HHS Action Official:

Jackie Gamer
Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





  REVIEW OF MEDICAID

  CREDIT BALANCES AT

 ST. JOSEPH HOSPITAL AS

     OF JUNE 30, 2007





                    Daniel R. Levinson

                     Inspector General


                        June 2009

                      A-05-08-00089

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (DEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, DEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to DIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for DIG's internal operations. OCIG represents DIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other DIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Illinois Department of Healthcare and Family
Services (the State agency) is responsible for administering the Illinois Medical Assistance
Program (Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives
payment for the same service from another third party payer. In such cases, the provider should
return the existing overpayment to the Medicaid program, which is the payer of last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” implements section 1903(d)(2)(C) and (D) of the Act, requiring States to adjust any
outstanding credit balances within 60 days after notification by a provider that a credit balance
exists. The State agency does not have any regulations in place requiring providers to refund
Medicaid credit balances within a specific time frame.

St. Joseph Hospital (the hospital) is a 30 licensed-bed healthcare facility, located in Chicago,
Illinois. The State agency reimbursed the hospital approximately $24 million for Medicaid
services during calendar year 2007.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in the hospital’s
accounting records for inpatient and outpatient services represented overpayments that it should
have returned to the Medicaid program.

SUMMARY OF RESULTS

The Medicaid credit balances recorded in the hospital’s accounting records for inpatient and
outpatient services did not represent overpayments that should be returned to the Medicaid
program. As a result, this report contains no recommendations.




                                                  i
                                                 TABLE OF CONTENTS 


                                                                                                                          Page


INTRODUCTION..............................................................................................................1
 


          BACKGROUND .....................................................................................................1 


         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................1 

              Objective ......................................................................................................1 

              Scope............................................................................................................1 

              Methodology ................................................................................................2 


RESULTS OF AUDIT.......................................................................................................2
 





                                                                    ii
                                        INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Illinois Department of Healthcare and Family
Services (the State agency) is responsible for administering the Illinois Medical Assistance
Program (Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives
payment for the same service from another third party payer. In such cases, the provider should
return the existing overpayment to the Medicaid program, which is the payer of last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” implements section 1903(d)(2)(C) and (D) of the Act, requiring States to adjust any
outstanding credit balances. Accordingly, the provider must request an adjustment to the claim
or refund the amount to the State agency. Subsequently, the State agency must adjust the
applicable claim or recover the amount of the Medicaid overpayment.

St. Joseph Hospital (the hospital) is a 30 licensed-bed healthcare facility, located in Chicago,
Illinois. The State agency reimbursed the hospital approximately $24 million for Medicaid
services during calendar year 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in the hospital’s
accounting records for inpatient and outpatient services represented overpayments that it should
have returned to the Medicaid program.

Scope

As of June 30, 2007, the hospital’s accounting records contained 133 credit balance accounts
totaling $67,245 with Medicaid listed as a payer. Our review of credit balances included seven
outpatient accounts totaling $18,251 and four inpatient accounts totaling $34,000. We limited
our review of internal controls to obtaining an understanding of the policies and procedures used
by the hospital to review credit balances and report overpayments to the Medicaid program and




                                                 1

did not review its entire internal control structure. This understanding was for the purpose of
accomplishing our objective and not to provide assurance of the internal control structure.

We performed fieldwork from August through October 2008 at St. Mary of Nazareth hospital
located in Chicago, Illinois, where St. Joseph hospital maintained its accounting records.

Methodology

To accomplish our objective, we:

   • 	 reviewed Federal and State requirements pertaining to Medicaid credit balances;

   • 	 identified and reconciled the hospital Medicaid credit balances to its accounting records
       as of June 30, 2007;

   •	   reconciled the hospital’s June 30, 2007 credit balance list to the accounts receivable
        records and reconciled the accounts receivable records to the trial balance; and

   • 	 reviewed patient payment data, Medicaid claim forms and remittance advices, patient
       accounts receivable detail and additional supporting documentation for each credit
       balance account.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                     RESULTS OF AUDIT

The Medicaid credit balances recorded in the hospital’s accounting records for inpatient and
outpatient services did not represent overpayments that should be returned to the Medicaid
program. As a result, this report contains no recommendations.




                                                 2

